INTEREST RATE AND INTEREST CHARGES
Annual Percentage Rate(APR) for
Purchases

16.90%

APR for Cash Advances

16.90%

Standard APR based on your credit worthiness.

Standard APR based on your credit worthiness.
Paying Interest

We will not charge you any interest on purchases if you pay your entire balance by the due date
each month.
The Interest Charge on cash advances begins from the date you obtained the cash advance.
Minimum Interest Charge
If you are charged periodic interest, the charge will be no less than $0.
For Credit Card Tips from the Consumer To learn more about factors to consider when applying for or using a credit card, visit the website
Financial Protection Bureau
of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES
Annual Fees
Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Fees
Penalty Fees
• Late Payment
• Over-the-Credit-Line
• Returned Payment

Up to $10
None
None
1.0% of each transaction in U.S. dollars.

Up to $50
None
None
How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases)”.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
Loss of Introductory APR: N/A

Cache Valley Bank- Card Regulations
DISCLOSURES REQUIRED BY FED ERAL LAW
1. FINANCE CHARGES
a) CALCULATION METHOD S: Cash Advance-Method A, Credit Purchases-Method G (See
Periodic Fin ance Charge Calculation Methods)
b) Periodic Rates and Corresponding Annual Percentage Rates used to compute Fin ance
Charges are disclosed in the accompanying term disclosure.
C) CASH ADVANCE FEES: None. For each ATM Cash Advance, a transaction fee may also be
imposed by an ATM operator, not holding your account, or by any national, regional or local
network used to complete a Cash Advance transaction.
2, OVER LIMIT CHARGES. None. Cardholder shall immediately pay the amount by which the
total New Balance exceeds the maximum authorized credit.
3. ANNUAL FEE.
a) A non-refundable Annual Fee of $10.00 plus applicable taxes, shall be charged to your
account or
b) Using Plan 3 (see Section 11) an annual fee shall be charged unless for the time period
analyzed, you had 3 or more transactions on your card.
4. MINIMUM PAYMENT
a) The minimum payment required is the New Balance shown on your statement if the amount is
equal to or less than $20.00
b) If the New Balance exceeds $20.00, the minimum payment is 5% of that portion of the new
balance which does not exceed your credit limit (rounded up to the nearest dollar ) or $20.00,
whichever is greater, plus the portion of the New Balance in excess of your credit limit, plus any
amount past due.
5. LATE CHARGES: If the minimu m required payment is not received within 25 days after the
Closing Date subsequent to the payment Due Date, a late charge equal to the greater of $2.00,
or 5% of the unpaid portion of the past due amount is imposed, but not to exceed $50.00.
6. The only FINANCE CHARGES assessed on your account other than those assessed by a
periodic rate will be transaction FINANCE CHARGES in connection with Cash Advances or
International Transaction Fees (i.e. cross-border and/or currency conversion fees) or up to 1%,
which may qualify as a FINANCE CHARGE (See item O), if part of your plan. Transactions
FINANCE CH ARGES for each Cash Advance will be imposed on the date the Cash Advance
was posted to your account. No grace period applies on any transaction FINANCE CHARGE
imposed for Cash Advances.
7. Documentary stamp taxes as may be required by law shall be imposed on each Cash
Advance at the time the loan is made.
8. The annual fee shall be treated as a Credit Purchase for purposes of calculating FINANCE
CHARGES, unless prohibited by law.
9. In California a maximum of $10 in Over Limit Fees may be imposed with respect to any
charge that causes the outstanding balance to exceed the credit limit by $500 or 120 percent,
whichever is less. No more than one over limit charge may be assessed within a single monthly
billing cycle.
10. If you have other loans or credit ex tensions from Issuer, or take out other loans or credit
extensions with issuer in the future, collateral securing those loans or credit extensions will also
secure your obligations under this agreement. However, unless you expressly agree otherwise,
your household goods and dwelling will not secure your obligations under this agreement even if
Issuer has, or later acquires, a security interest in the household goods or a mortgage on the
dwelling. If you have executed a written agreement granting a security interest in any deposit
accounts (checking , savings, or share accounts) or other funds held by Issuer to secure your
obligations under this credit card plan, such accounts and/or funds are additional security for
your obligations to Issuer arising from the use of your card.
11. Annual Fee Plans: Your Annual Fee waiver analysis under the Plan noted in Section 3 b.
only includes the following transactions: Plan 1: Gross Sales; Plan 2: Gross Cash Advances;
Plan 3: Net Sales; Plan 4: Net Cash Advances; Plan 5: Gross Sales plus Gross Cash Advance;
Plan 6: Net Sales plus Net Cah Advances (Note: Time period analyzed shall be prior 12 month
period; however, initial time period may be less than 12 months as it begins on the date you were
notified of this program. Annual Fees shall not be waived for cardholders in default)

PERIODIC FINANCE CH ARGE CALCULATION METHOD S
The periodic Finance Charge Calculation Method applicable to your account for Cash Advances
and Credit Purchases of goods and serves that you obtain through the use of your Card is
specified in Section 1 on the Disclo sure and explained below:
METHOD A-Average Daily Balance (including current transactions). The Finance Charge on
purchases begins from the date the transaction is posted to your account and the Fin ance
Charge on cash advances begins from the date your obtained the cash advance, or the first day
of the billing cycle in which it is posted to your account, whichever is later. There is no grace
period. The Finance Charges for a billing cycle are computed by applying the monthly Periodic
Rate to the "average daily balance" of your account. To get the average daily balance, we take
the beginning balance of your account each day, add any new purchases of cash advances, and
subtract any payments, credits, non-accruing fees, and unpaid finance charges. This gives us
the daily balance. Then we add up all the daily balances for the billing cycle and divide the total
by the number of days in the billing cycle.
METHOD E-Average Daily Balance (excluding current transactions). To avoid incurring an
additional Fin ance Charge on the balance of purchases (and cash advances if Method E is

specified as applicable to cash advances) reflected on your monthly statement, you must pay the New
Balance shown on your monthly statement on or before the Payment Due Date. The grace period for
the New Balance of purchases extends to the Payment Due Date. The Finance Charges for a billing
cycle are computed by applying the monthly Periodic Rate to the "average daily balance" of purchases
(and if applicable, cash advances). To get the average daily balance, we take the beginning balance
of your account each day and subtract any payments, credits, non-accruing fees, and unpaid finance
charges. We do not add in new purchases or cash advances. This gives us the daily balance. Then
we add up all the daily balances for the billing cycle and divide the total by the number of days in the
billing cycle.
METHOD F-Average Daily Balance (including current transactions) To avoid incurring an additional
Finance Charge on the beginning balance of cash advances (and purchases, if Method F is specified
as applicable to purchases) reflected on your monthly statement, you must pay the Beginning Balance
shown on your monthly statement on or before the Payment Due Date. No grace period is provided for
current cycle transactions. The Finance Charges for a billing cycle are computed by applying the
monthly Periodic Rate to the "average daily balance" of cash advances (and if applicable, purchases).
To get the average daily balance, we take the beginning balance of your account each day, add any
new purchases or cash advances, and subtract any payments, credits, non-accruing fees, and unpaid
finance charges. This gives us the daily balance. Then we a dd up all the daily balances for the billing
cycle and divide the total by the number of days in the billing cycle.
METHOD G-Average daily Balance (including current transactions). To avoid incurring an additional
Finance Charge on the balance of purchases (and cash advances, if Method G is specified as
applicable to cash advances) reflected on your monthly statement and, on any new purchases (and if
applicable, cash advances) appearing on your next monthly statement, you must pay the New
Balance, shown on your monthly statement, on or before the Payment Due Date. The grace period for
the New Balance of purchases extends to the Payment Due Date. The Finance Charges for a billing
cycle are computed by applying the monthly Periodic Rate to the "average daily balance" of purchases
(and if applicable, cash advances). To get the average daily balance, we take the beginning balance
of your account each day, add any new purchases or cash advances, and subtract any payments,
credits, non-accruing fees, and unpaid finance charges. This gives us the daily balance, Then we add
up all the daily balances for the billing cycle and divide the total by the number of days in the billing
cycle.
TER MS GOVERNING THE U SE OF YOUR C ARD
The person ("Cardholder") whose name is embossed on the face of the VISA ("Card") enclosed
herewith, and each Cardholder, in the event more than one Card is enclosed herewith bearing the
same account number, by signing or using said Card, receipt of which is acknowledged, agrees with
the Issuer of the Card whose name is printed above ("Issuer") as follows:
A. Goods and services ("Credit Purchases") may be purchased or leased by means of such card by
Cardholder from any retail Business establishment ("seller") who honors same upon the execution of a
sales slip evidencing such Credit Purchases and bearing the account number of Cardholder
embossed on the face of such Card. Additionally, VISA Cash Advances ("loans") may be obtained
through use of such Card (a) upon execution of a written request of Cardholder in a form furnished to
Cardholder from any financial institution that is a member, alone or in association with others, of VISA
U.S.A. Inc. and (b) upon execution of a written separate agreement with issuer for a VISA overdraft
financing agreement if offered by Issuer.
B. Cardholder shall be liable and agrees to pay issuer for Credit Purchases made by, or for Loans
extended to, Cardholder or anyone else using such Card unless the use of such Card is by a person
other than the Cardholder (a) who does not have actual, implied or apparent authority for such use,
and (b) from which Cardholder receives no benefit. Additionally, Cardholder shall be jointly and
severally liable and agrees to pay for all Credit Purchases and Loans obtained through the use o f any
other Card bearing Cardholder's account number that has been issued to another person by reason of
such person being a member of Cardholder's family, or otherwise issued upon Cardholder's request
(all such Cards bearing the VISA account number hereinafter collectively called ("Related Cards")
C. Cardholder agrees to pay to Issuer an annual membership fee (as stated in this Disclosure) for
participation in the issuer's credit card plan. Such annual membership fee shall be imposed whether or
not Cardholders uses the card to obtain credit purchases and loans. The membership fee shall be
charged to Cardholder's account each year in the month of Issuer's choice. The membership fee is not
refundable in the event of termination of the account by either Cardh older or Issuer unless otherwise
provided by law.
D. Each card is the property of the Issuer, is not transferable and must be surrendered upon demand.
It can be canceled as well as repossessed by Issuer or its designee and the privileges thereof revoked
at any time without prior notice.
E. Cardholder shall not use the Card or permit the use of Related Cards to obtain Credit Purchases or
Loans, which will increase Cardholder's indebtedness to Issuer to an amount in excess of the limit
established by Issuer.
F. All Credit Purchases and Loans are effected at the option of the Seller and Cash Advancing
Financial Institution respectively, and Issuer shall not be responsible for refusal by any Seller or Cash
Advancing Fin ancial Institution to honor the Card or any Related Card. Any refund, adjustment or
credit allowed by Seller shall not be by cash but rather by a credit advice to Issuer which shall be
shown as a credit on Cardholder's account statement with Issuer.
G. Issuer will send to Cardholder, at monthly intervals determined by Issuer, a statement reflecting for
the prior monthly period all VISA Card and Related Card Transactions. Such statement shall be
deemed correct and accepted by Cardholder and all holders of Related Card unless Issuer is notified
to the contrary in writing with 60 days of mailing of such statement. Cardholder will pay such statement

by remitting to issuer within 25 days of the closing date reflected on the statement either the full
amount billed or, at Cardholder's option, an installment equal to a least the required minimum
payment stated in Section 4.
H. Interest on Loans and Credit Purchases will be charged in accordance with the finance
charge calculation method referred to in Section 1 of the disclosures on the reverse side. The
rate of interest shall be established by Issuer from time to time but shall never er exceed the
maximum rate permitted by law. The current interest rate per annum is the Annual Percentage
Rate set forth in Section 1 of the Disclosure.
I. If the card is canceled or surrender is demanded by Issuer, or if Cardholder defaults in any
payment due, or is deceased, bankrupt or insolvent, or any attachment or garnishment
proceedings are initiated against Cardholder or his property, Issuer may elect to declare all
amounts then owed to Issuer to be immediately due and payable without notice or demand of
any kind. If Cardholder has other loans from issuer, or takes out other loans with Issuer in the
future, collateral securing those loans will also secure the Cardhold er's obligations under this
agreement. However, unless the Cardholder expressly agrees otherwise, the Cardholder's
household goods and dwelling will not secure Cardholder's obligations under this agreement
even if Issuer has or later acquires a security interest in the household goods or a mortgage on
the dwelling. Cardholder agrees to pay all costs incurred by Issuer in collecting Cardholder's
indebtedness or in enforcing this agreement, including reasonable attorney's fees and also those
costs, expenses and attorney's fees incurred in appellate, bankruptcy and post-judgment
proceedings, except to the extent such costs, fees, or expenses are prohibited by law.
J. This agreement may be amended from time to time by issuer by written notice mailed to
Cardholder at Cardholder's last known address
K. Except to the extent that Federal Law is applicable, the validity, construction and enforcement
of this agreement and all matters arising out of the issuance and use of the Card shall be
governed by the laws of the state in which the principal office of issuer is located.
L. Additional charges, plus applicable taxes, may also be assessed if you pay us with a check
not honored by your financial institution, request a copy of a document, request a replacement
card of use your card for a transaction at an automated teller machine, if such charges are not
prohibited by law or regulation. No finance Charge will be assessed on such additional charges.
M. If it is believed that the Card has been lost or stolen or used in an unauthorized manner, the
Cardholder shall contact Issuer AT ONCE in order to minimize possible losses. In most cases,
the Cardholder will not be liable for any unauthorized transactions unless it is determined that the

Cardholder was grossly negligent or fraudulent in the handling of the Card. Notification can be made
orally or in writing at:
Credit Card Security Department
P.O. Box 30035
Tampa, Florida 33630
Telephone Number
(727) 570-4881
N. Cardholder agrees that Issuer, its agents or service co mpanies may monitor and/or record any
telephone communications with Cardholder.
O. Payments must be made to the Issuer in U.S. dollars drawn on a U.S. Financial Institution. If
Cardholder incurs charges in any other currency, the charges will be converted into U.. dollars. The
exchange rate for transactions in a foreign currency will be a rate selected by Visa from the range of
rates available in wholesale currency markets for the applicable central processing date, which rate
may vary from the rate Visa itself receives, or the government mandated rate in effect for the
applicable central processing date. All transactions in foreign countries will be subject to a 1%
conversion or processing fee.
P. Issuer shall have sole discretion in how payments are applied to cardholder's account. Issuer may
accept checks marked "Payment in Full" or with words of similar effect without losing any of Issuer's
rights to collect the full balance of Cardholder's account.
Q. Issuer can reinvestigate and reevaluate any information Cardholder provided on Cardholder's
credit application at any time, and in the course of doing so, Issuer may ask Cardholder for additional
information, request credit bureau reports and/or otherwise verify Cardholder's current credit standing.
R. Cardholder agrees that Issuer may re-release information to others, such as credit bureaus,
regarding the status and history of Cardholder's account. However, Issuer is not obligated to release
any such information to anyone unless Issuer is required by law to do so.
S. Cardholder agrees that Cardholder's account shall be subject to all applicable rules and regulations
of VISA U.S.A Inc., as applicable, as well as all applicable laws. If there is any conflict between the
provisions of this Agreement and the rules and regulations of VISA U.S.A. Inc., the rules and
regulations of VISA U.S.A. Inc shall control. Your Visa Card may not be used for any illegal
transactions.

